Audit Report




OIG-13-040
Treasury Needs Written Policies and Procedures for Its Oversight
of the Housing Finance Agency Initiative
May 30, 2013




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report.................................................................................. 1

   Results in Brief ............................................................................................ 2

   Background ................................................................................................ 3

   Audit Results .............................................................................................. 6

       Treasury Needs Written Policies and Procedures for Its Oversight of the
       HFA Initiative ......................................................................................... 6

       Recommendation .................................................................................... 8

Appendices

   Appendix 1:          Objectives, Scope, and Methodology ......................................              11
   Appendix 2:          Descriptions of the New Issue Bond Program and
                        Temporary Credit and Liquidity Program ..................................              12
   Appendix 3:          Management Response .........................................................          17
   Appendix 4:          Major Contributors to This Report ...........................................          19
   Appendix 5:          Report Distribution ................................................................   20

Abbreviations

   Fannie Mae           Federal National Mortgage Association
   Freddie Mac          Federal Home Loan Mortgage Corporation
   FHFA                 Federal Housing Finance Agency
   GSE                  Government Sponsored Enterprise
   HERA                 Housing and Economic Recovery Act of 2008
   HFA                  Housing Finance Agency
   JAMES                Joint Audit Management Enterprise System
   MRB                  Mortgage Revenue Bond
   MBS                  Mortgage Backed Security
   NIBP                 New Issue Bond Program
   OIG                  Office of Inspector General
   TCLF                 Temporary Credit and Liquidity Facility
   TCLP                 Temporary Credit and Liquidity Program
   VRDO                 Variable Rate Demand Obligation



                        Treasury Needs Written Policies and Procedures for Its Oversight of the             Page i
                        Housing Finance Agency Initiative (OIG-13-040)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                             Audit
OIG
The Department of the Treasury
                                                                                             Report
Office of Inspector General




                       May 30, 2013

                       Mary John Miller
                       Under Secretary for Domestic Finance

                       Richard Gregg
                       Fiscal Assistant Secretary

                       The Housing and Economic Recovery Act of 2008 1 (HERA)
                       provided the Department of the Treasury (Treasury) with temporary
                       authority to purchase obligations and securities issued by the
                       government sponsored enterprises (GSEs), namely the Federal
                       National Mortgage Association (Fannie Mae) and the Federal Home
                       Loan Mortgage Corporation (Freddie Mac). Prior to the expiration of
                       its purchase authority in December 2009, Treasury entered into the
                       Housing Finance Agency (HFA) Initiative with the Federal Housing
                       Finance Agency (FHFA), Fannie Mae, and Freddie Mac to support
                       state and local housing finance agencies that were experiencing
                       challenges in providing financing for affordable housing.

                       We conducted this audit as part of our oversight of Treasury’s use
                       of its various authorities provided under HERA. Using its authority,
                       Treasury established several programs to address the financial
                       crisis in the housing market. 2 This report presents the results of our
                       audit of Treasury’s participation in the HFA Initiative. Our overall
                       audit objective was to determine whether the two component
                       programs of the HFA Initiative—the New Issue Bond Program
                       (NIBP) and the Temporary Credit and Liquidity Program (TCLP)—
                       were being administered consistent with Treasury's authority under
                       HERA. Specifically, we assessed Treasury's process for


1
 Pub. L. No. 110-289,122 Stat. 2683 (July 30, 2008)
2
 In addition to the HFA Initiative, Treasury entered into Senior Preferred Stock Purchase Agreements
with the GSEs and established the Agency Mortgage Backed Securities Program.

                       Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 1
                       Housing Finance Agency Initiative (OIG-13-040)
                      (1) monitoring the performance of the financial agents 3 hired to
                      carry out Treasury’s purchases of GSE securities and to serve as
                      custodian of the purchased securities and (2) determining whether
                      the HFA Initiative was achieving its stated program objectives.
                      Appendix 1 provides a more detailed description of our audit
                      objectives, scope, and methodology.


Results in Brief
                      Overall, we found that Treasury’s administration of the NIBP and
                      the TCLP under the HFA Initiative was consistent with its authority
                      under HERA. Treasury and the GSEs implemented the NIBP and the
                      TCLP in an effort to stabilize financial markets and prevent
                      disruptions in mortgage finance availability. In the course of the
                      housing downturn, state and local HFAs experienced challenges
                      with liquidity. The purpose of the NIBP was to provide temporary
                      funding so that HFAs could continue to finance mortgages through
                      the issuance of new housing bonds. The TCLP was intended to
                      help relieve financial strains that the HFAs were experiencing by
                      providing a temporary credit and liquidity backstop in the event
                      existing variable rate demand obligations (VRDOs)4 were tendered
                      and could not be remarketed. We found that these programs
                      contributed to the stabilization of the housing markets the HFAs
                      serve and provided additional mortgage finance availability. That is,
                      we found that HFAs participating in the NIBP were able to issue
                      new bonds to generate mortgages. Additionally, no VRDOs under
                      the TCLP have failed to be remarketed, to date, because VRDOs
                      have maintained sufficient credit ratings due to the liquidity
                      backstop.

                      We also noted that while Treasury did monitor the performance of
                      the financial agents overseeing the HFA Initiative, there were no
                      written policies and procedures governing Treasury’s monitoring
                      process. Additionally, Treasury did not sufficiently document the
                      results of its various reviews and oversight activities performed


3
  JPMorgan Chase Bank N.A. (JPMorgan) and State Street Bank and Trust Company (State Street) were
hired to serve as financial agents for Treasury’s Mortgage Backed Securities Program. Treasury modified
the financial agency agreements with the two companies to include services supporting the HFA
Initiative.
4
  VRDOs are floating rate, tax-exempt obligations that feature a “put” option for investors.

                      Treasury Needs Written Policies and Procedures for Its Oversight of the    Page 2
                      Housing Finance Agency Initiative (OIG-13-040)
                     specific to the NIBP and the TCLP. In July 2012, Treasury
                     developed procedures for performing site visits of financial agents.
                     However, the procedures did not provide for requirements to
                     document key meetings and decisions, the results of NIBP and
                     TCLP program outcomes, and ongoing reviews of various reports.

                     In our audit report on Treasury’s Agency Mortgage Backed
                     Securities (MBS) Purchase Program, 5 we recommended that the
                     Fiscal Assistant Secretary develop policies and procedures
                     emphasizing documentation requirements for programs using
                     financial agents. The implementation of this recommendation is
                     even more critical for the NIBP and the TCLP which are ongoing
                     programs. Accordingly, in this report, we are recommending that
                     the Fiscal Assistant Secretary establish and implement written
                     policies and procedures specific to the HFA Initiative for ensuring
                     its comprehensive monitoring of the financial agents’ performance.
                     Procedures should include a requirement that Treasury personnel
                     responsible for overseeing the HFA Initiative document key
                     meetings and decisions, as well as, the results of reviews of NIBP
                     and TCLP program outcomes to ensure the HFA Initiative continues
                     to meet program objectives.

                     In a written response, Treasury management agreed with our
                     recommendation, stating that it will develop and apply written
                     policies and procedures to monitor the performance of the financial
                     agents. However, the response did not specify the target date for
                     completing the planned action. The Fiscal Assistant Secretary will
                     need to establish a target date in the Joint Audit Management
                     Enterprise System (JAMES), Treasury’s audit recommendation
                     tracking system. Management’s response is provided in
                     appendix 3.


Background
                     Congress passed HERA in July 2008 to address the rapidly
                     deteriorating mortgage market. Among other things, HERA created
                     FHFA, with enhanced regulatory authority over the GSEs. It also
                     provided the Secretary of the Treasury with certain purchase

5
 Treasury Implemented the MBS Purchase Program Consistent With Its Authorities But Needs to
Improve Oversight of Financial Agents (OIG-13-030; issued Jan. 3, 2013)

                     Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 3
                     Housing Finance Agency Initiative (OIG-13-040)
authorities intended to ensure the GSEs’ financial stability. As a
result of the challenges that Fannie Mae and Freddie Mac were
experiencing in raising additional capital and concerns over their
ability to operate safely and soundly, FHFA placed the two GSEs
into conservatorship on September 6, 2008.

Section 1117 of HERA provided Treasury temporary authority to
purchase obligations and other securities issued by Fannie Mae,
Freddie Mac, and any Federal Home Loan Bank on such terms and
conditions and in such amounts as the Treasury may determine.
Treasury undertook several initiatives to ensure survival of the
GSEs and stabilize the housing market. At the outset of HERA,
Treasury entered into the Senior Preferred Stock Purchase
Agreements with Fannie Mae and Freddie Mac and established the
Agency MBS Purchase Program. In response to requests from the
National Council of State Housing Agencies and the National
Association of Local Housing Finance Agencies, as well as state
and local HFAs, Treasury entered into a memorandum of
understanding with FHFA, Fannie Mae, and Freddie Mac in October
2009 for the design and execution of the HFA Initiative. The HFA
Initiative was intended to help support low mortgage rates and
expand resources for low- and middle-income borrowers to
purchase or rent homes that are affordable over the long term.

The HFA Initiative was a component of the Homeowner
Affordability and Stability Plan, a comprehensive plan designed to
stabilize the housing market by supporting low mortgage rates,
providing alternatives to foreclosures, and expanding access to
refinance and loan modifications. The HFA Initiative was comprised
of two programs, the NIBP and the TCLP. These programs were
intended to help support state and local HFAs continue their
missions of helping low- and moderate-income persons attain
affordable housing. HFAs also provide refinancing and modification
opportunities to homeowners at risk of foreclosure. State and local
HFAs are agencies created by state law that operate in all 50
states and fund the activities they support by issuing tax-exempt
mortgage revenue bonds. Because of market conditions and the
housing downturn, HFAs found it challenging to provide affordable
mortgage options.




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 4
Housing Finance Agency Initiative (OIG-13-040)
                      The NIBP component of the HFA Initiative was designed to provide
                      a temporary supplemental market for newly issued HFA housing
                      bonds. The intent of the program was to provide stability to
                      financial markets and prevent disruptions in mortgage finance
                      availability. Treasury purchased approximately $15.3 billion of
                      Fannie Mae and Freddie Mac securities and obligations backed by
                      newly issued HFA bonds. Treasury receives payments of principal
                      and interest on its investments in the GSEs’ securities and
                      obligations. As of April 15, 2013, Treasury had received payments
                      of $4.35 billion in principal and $639 million in interest.

                      The TCLP component of the HFA Initiative provides HFAs with
                      temporary credit and liquidity facilities, similar to letters of credit.
                      The intent of this program was to help relieve financial strains on
                      HFAs caused by the housing downturn. Treasury committed $8.2
                      billion for a 100 percent participation interest in the credit and
                      liquidity facilities established by the GSEs to support the existing
                      VRDOs. As of April 2013, Treasury has not been required to
                      disburse funds because all VRDOs under the TCLP were
                      successfully remarketed. The TCLP was initially set to expire
                      December 31, 2012, but has been extended to December 31,
                      2015. As of March 31, 2013, Treasury received approximately
                      $95 million in fees from HFAs participating in the TCLP.

                      Appendix 2 provides further details about the NIBP and the TCLP.

                      To carry out the custodial and managerial duties for the HFA
                      Initiative, Treasury amended its Financial Agency Agreements with
                      JPMorgan (Custodian) and State Street (Asset Manager),
                      established for the Agency MBS Purchase Program. The
                      amendments included custodial and accounting services provided
                      by JPMorgan and services provided by State Street for the design,
                      acquisition, management, and analysis of the NIBP and the TCLP. 6
                      While the financial agents performed the daily operational functions
                      for the HFA Initiative, Treasury is responsible for monitoring the
                      HFA Initiative’s overall performance as well as the performance of
                      the financial agents.



6
  JPMorgan and State Street received approximately $22.9 million for services rendered on the HFA
Initiative through December 2012.

                      Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 5
                      Housing Finance Agency Initiative (OIG-13-040)
              Treasury also has policy-related responsibilities, including whether
              the NIBP and the TCLP are meeting their objectives and
              determining whether or not to extend the programs. The
              fundamental intent of the HFA Initiative is to provide stability to
              financial markets and prevent disruptions in mortgage finance
              availability. The program objective specific to the NIBP is to provide
              mortgage finance to low- and moderate-income families and is
              measured by the number of new mortgage originations for single-
              and multi-family homes. The objective of the TCLP is to provide the
              HFAs with a temporary liquidity backstop to help preserve their
              financial health and viability, enabling them to continue their
              support of affordable housing. To make its determinations,
              Treasury reviews reports generated by State Street using data
              collected from the HFAs that measure whether or not the NIBP and
              the TCLP are meeting their program objectives.


Results of Audit

              Treasury Needs Written Policies and Procedures for Its
              Oversight of the HFA Initiative

              Treasury monitored the HFA Initiative through its oversight of
              services provided by JPMorgan and State Street as outlined in the
              Financial Agency Agreements. However, Treasury did not have
              written policies and procedures documenting its oversight process.
              Furthermore, Treasury did not maintain sufficient records
              supporting the results of various reviews and oversight activities
              performed specific to the NIBP and the TCLP.

              JPMorgan was primarily responsible for computing bond income
              activity, monitoring the underlying assets, and reconciling its
              records with the GSEs’ financial agent (U.S. Bank) custodial
              reports. JPMorgan also maintained records on principal and interest
              of the VRDOs, monitored the overall VRDO market for risk
              exposure to Treasury, and calculated the HFAs’ fees due to the
              GSEs and Treasury. State Street provided portfolio management as
              well as operational, analytical, and reporting services. State Street
              tracked bond issuances and balances, the HFAs’ use of program
              funds, and the overall condition of the housing market. Both
              JPMorgan and State Street are required to provide reports on

              Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 6
              Housing Finance Agency Initiative (OIG-13-040)
monthly activities to Treasury and ad hoc reports if requested.
Overall, Treasury used monthly reports from JPMorgan and State
Street to stay up-to-date on the housing market and informed of
bond issuances, bond balances, and use of program funds by state
and local HFAs.

Treasury’s key oversight activities included (1) verifying that
JPMorgan’s records reconcile with U.S. Bank’s records,
(2) reviewing the appropriateness of bond interest rates,
(3) conducting conference calls with financial agents on program
status, (4) performing site visits to the financial agents,
(5) attending governance meetings with FHFA, the GSEs, and the
financial agents, and (6) approving financial agents’ invoices for
payment.

Although Treasury officials stated that continuous monitoring of
the HFA Initiative was performed, there was neither a formalized
policy governing its oversight process nor sufficient records
maintained documenting the results of reviews, site visits, or key
decisions made. The financial agents confirmed that Treasury
personnel provided program oversight through their periodic site
visits, reviews of monthly reports and bond interest rates, as well
as by their questions regarding HFAs’ adherence to investment
guidelines. In addition, Treasury maintained evidence of its reviews
of the financial agent invoices and attendance at the Governance
Committee meetings. However, similar documentation was not
maintained with regard to Treasury’s verification of JPMorgan’s
reconciliations and all key decisions made or significant discussions
during conference calls with financial agents.

When questioned as to the reason policies and procedures were
not documented, a Treasury official told us that written policies
and procedures to monitor the financial agents were not considered
necessary because the financial agents have their own policies and
procedures for performing their responsibilities outlined in the
financial agency agreements. Furthermore, we were told that
Treasury was satisfied with the accuracy of the information
received.

The Government Accountability Office (GAO) established internal
control standards for federal agencies. Those standards provide


Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 7
Housing Finance Agency Initiative (OIG-13-040)
                        that control activities occur at all levels and functions of the entity
                        and include a wide range of diverse activities to include the
                        creation and maintenance of related records which provide
                        evidence of execution of these activities as well as appropriate
                        documentation. Furthermore, internal control and all transactions
                        and other significant events need to be clearly documented, and
                        the documentation should be readily available for examination. The
                        documentation should appear in management directives,
                        administrative policies, or operating manuals and may be in paper
                        or electronic form. All documentation and records should be
                        properly managed and maintained. 7

                        Treasury established its own documentation requirements in
                        Treasury Directive Publication 80-05, which states that all program
                        officials shall create and maintain adequate and proper
                        documentation of the program for which they are responsible. This
                        means a record of the conduct of government business that is
                        complete and accurate to the extent required to document the
                        organization, functions, policies, decisions, procedures, and
                        essential transactions of their office and to protect the legal and
                        financial interest of the government and of persons directly
                        affected by the activities of their office. 8

                        Considering that the TCLP has been extended through December
                        2015 and the bonds underlying NIBP securities have maturities of
                        up to 42 years, the need for formalized policies and procedures
                        governing the oversight of the financial agents is imperative.
                        Without written policies and procedures, as well as sufficient
                        documentation evidencing reviews, there is increased risk that
                        future Treasury personnel may not perform effective or consistent
                        monitoring of the HFA Initiative and that noncompliance on the part
                        of the financial agents may go undetected.

                        Recommendation

                        In our report on Treasury’s Agency MBS Purchase Program, we
                        recommended that the Fiscal Assistant Secretary develop policies
                        and procedures emphasizing documentation requirements for
                        programs using financial agents. The implementation of this

7
    GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government (Nov. 1999)
8
    Treasury Directive Publication 80-05, “Records and Information Management Manual” (June 2002)

                        Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 8
                        Housing Finance Agency Initiative (OIG-13-040)
recommendation is even more critical for the NIBP and the TCLP
since they are ongoing programs. Therefore, as a new
recommendation, the Fiscal Assistant Secretary should establish
and implement written policies and procedures specific to the HFA
Initiative for ensuring its comprehensive monitoring of the financial
agents’ performance. Procedures should also include a requirement
that Treasury personnel responsible for overseeing the HFA
Initiative document key meetings and decisions, as well as, the
results of reviews of NIBP and TCLP program outcomes to ensure
that the HFA Initiative continues to meet program objectives.

Management Response

Treasury management agreed with our recommendation, stating
that it will develop and apply written policies and procedures to
monitor the financial agents. According to the response, the
statement by a Treasury employee that written policies and
procedures to monitor the financial agents were not considered
necessary, did not and does not reflect the views of Treasury
management.

OIG Comment

Management’s planned action, implemented as described, meets
the intent of our recommendation. However, management needs to
establish a target date for completing its planned action.




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 9
Housing Finance Agency Initiative (OIG-13-040)
                                   ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Audit Director, at
(202) 927-5784. Major contributors to this report are provided in
appendix 4.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 10
Housing Finance Agency Initiative (OIG-13-040)
Appendix 1
Objectives, Scope, and Methodology




We initiated an audit of the two component programs of the
Housing Finance Agency (HFA) Initiative— the New Issue Bond
Program (NIBP) and the Temporary Credit and Liquidity Program
(TCLP)— to determine if the programs were being administered
consistent with Treasury's authority under the Housing and
Economic Recovery Act. Specifically, we assessed Treasury's
process for (1) monitoring the performance of the financial agents
hired to carry out Treasury’s purchases of government sponsored
enterprise securities and to be custodian of the purchased
securities and (2) determining whether the HFA Initiative is
achieving its stated program objectives.

In performing our work, we reviewed applicable laws and
regulations, and other key documents to include the HFA Initiative
Memorandum of Understanding and the Program Agreements with
the Federal National Mortgage Association (Fannie Mae) and the
Federal Home Loan Mortgage Corporation (Freddie Mac), the
financial agency agreements with JPMorgan Chase Bank N.A.
(JPMorgan) and State Street Bank and Trust Company (State
Street), and reports provided to Treasury by the financial agents.
We also conducted interviews with Treasury officials responsible
for overseeing the HFA Initiative, officials from the Federal Housing
Finance Agency, and personnel at the financial agents, JPMorgan
and State Street, who provide services to Treasury. The scope of
our audit included Treasury’s oversight activities beginning
September 2009 through August 2012. We performed our
fieldwork from May 2011 through September 2012.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 11
Housing Finance Agency Initiative (OIG-13-040)
                       Appendix 2
                       Descriptions of the New Issue Bond Program and Temporary Credit and Liquidity
                       Program



                       New Issue Bond Program

                       The New Issue Bond Program (NIBP) was intended to provide
                       stability to financial markets and prevent disruptions in mortgage
                       finance availability by providing a temporary supplemental credit
                       market for newly issued state and local housing bonds. Housing
                       Finance Agencies (HFAs) typically fund their lending activities by
                       issuing tax-exempt mortgage revenue bonds (MRBs). 9 However,
                       HFAs were experiencing challenges as a result of strains on the
                       housing sector and tax-exempt market. By temporarily
                       supplementing private demand for MRBs, the NIBP is intended to
                       support HFAs in providing single- and multi-family mortgage credit
                       availability that benefits low- and moderate-income persons.

                       Using its authority under the Housing Economic and Recovery Act,
                       Treasury purchased from the government sponsored enterprises
                       (GSEs), namely the Federal National Mortgage Association (Fannie
                       Mae) and the Federal Home Loan Mortgage Corporation (Freddie
                       Mac), eight securities and four obligations totaling approximately
                       $15.3 billion in December 2009. Simultaneous with Treasury’s
                       purchases, the GSEs entered into agreements with state and local
                       HFAs to purchase MRBs which back the GSE securities. The eight
                       GSE securities were made up of approximately $12.4 billion in
                       single-family (SF) bonds and $2.9 billion in multi-family (MF) bonds.
                       The four GSE obligations were made up of $54 million in multi-
                       family credit enhanced bonds. 10 The credit enhanced bonds require
                       Freddie Mac to make guaranteed borrower payments of principal
                       and interest. The NIBP purchases were made on December 9 and
                       December 18, 2009, and settled on December 23, 2009, and
                       January 12, 2010, respectively.

                       Under the original terms of the agreements with the GSEs, the
                       HFAs were required to issue bonds to both the GSEs and the
                       private market out of the same indenture. 11 That meant that for the

9
  Mortgage revenue bonds are tax-exempt bonds that state and local HFAs issue to help fund below-
market-interest-rate mortgages for qualifying, first-time homebuyers.
10
   A credit enhanced bond is a mechanism for transferring credit risk from one party to another. In this
case, the risk is transferred from Treasury, the purchaser of the bonds, to Freddie Mac, who is obligated
to guarantee all payments owed to Treasury.
11
   An indenture is the legal binding agreement between the issuer of bonds (HFAs) and the purchasers
(bond trustees).

                       Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 12
                       Housing Finance Agency Initiative (OIG-13-040)
Appendix 2
Descriptions of the New Issue Bond Program and Temporary Credit and Liquidity
Program



HFAs to receive cash proceeds from the sale of GSE securities to
Treasury, the HFAs were required to first issue and sell bonds to
public and private investors in the open market (Market Bonds).
Additionally, the principal amount of the Market Bonds was
required to be no less than two-thirds of the principal amount of
Program Bonds (Market Bond ratio).

Until the Market Bond ratio was met, funds were escrowed through
the issuance of Pre-conversion Program Bonds (hereinafter referred
to as Escrow Bonds) from the HFAs’ trustees to the GSEs. Once
the Market Bonds were issued, the HFAs issued Program Bonds
backed by newly originated or refinanced mortgages. The Escrow
Bonds were then converted to Program Bonds. At that point, the
HFAs could use the proceeds from the Program Bonds to originate
or refinance single- and multi-family loans and mortgage backed
securities. Proceeds could also be used to refund, as fixed rate
bonds, any of the HFAs’ variable rate debt issued and outstanding
prior to October 19, 2009, or to refund a bond issue that was used
to finance eligible loans. Beginning in calendar year 2012, HFAs
were no longer required to issue Market Bonds which eliminated
the Market Bond ratio requirement. The flow of NIPB activities are
shown in figure1.

Figure 1.




Treasury receives all principal on the Program Bonds and the
remaining interest after reduction of fees paid to the GSEs as
payments of principal and interest on its investment in the GSEs.


Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 13
Housing Finance Agency Initiative (OIG-13-040)
Appendix 2
Descriptions of the New Issue Bond Program and Temporary Credit and Liquidity
Program



Additionally, all interest earned on the Escrow Bonds is remitted to
Treasury. As of April 15, 2013, Treasury had received payments of
$4.35 billion in principal and $639 million in interest. The principal
balance of NIBP securities and obligations as of April 15, 2013,
was about $10.9 billion.

The NIBP was designed to be temporary with the intent of
transitioning HFAs back to the private market for capital. However,
given the housing market’s slower-than-expected recovery, the
final date to convert NIBP Escrow Bonds to Program Bonds was
extended twice since its original expiration date of December 31,
2010. The first extension was to December 31, 2011, and the
second and final extension was to December 31, 2012, after
which the HFAs could no longer convert Escrow Bonds to Program
Bonds. The HFAs that had outstanding single-family Program Bonds
in excess of $25 million and participated in the NIBP extension are
required to pay fees to Treasury on their outstanding principal
balances until the Program Bonds are fully redeemed. As a result of
the extensions, Treasury received additional fees of $3.9 million.

Temporary Credit and Liquidity Program

The Temporary Credit and Liquidity Program (TCLP) was intended
to provide stability to the housing market and the state and local
HFAs which were experiencing financial strains. The TCLP is
administered by the GSEs and provides HFAs with a liquidity
backstop in order to help them maintain their financial health so
that they can execute their mission of supporting affordable
housing.

State and local HFAs typically issue Variable Rate Demand
Obligations (VRDOs) to raise the capital needed to provide
affordable mortgage financing for low- and moderate-income
households, especially first time homebuyers, and affordable multi-
family rental properties. VRDOs are floating rate, tax-exempt
obligations that feature a “put” option for investors and have long-
term maturities of 20 to 40 years. Prior to the recent housing
crisis, HFAs would issue VRDOs to meet housing credit demands
during a specific period. These VRDOs or indentures were sold to
private investors such as pension funds and were attractive
because investors retained the right to tender them at any time for


Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 14
Housing Finance Agency Initiative (OIG-13-040)
Appendix 2
Descriptions of the New Issue Bond Program and Temporary Credit and Liquidity
Program



the principal plus interest accrued. When the VRDOs were
tendered, remarketers contracted by the HFAs would resell them to
other investors. The tender or “put” option kept pressure on the
issuing HFAs to maintain a high degree of liquidity. Bond insurance,
carried by the HFAs, mitigated much of the risk as well as
enhanced the long-term rating of the VRDOs. Third party bond
insurers would guarantee the VRDOs through letters of credit
and/or stand-by purchase agreements. As a result of this
guarantee, the VRDO credit rating was enhanced by the credit
rating of the insuring institution itself.

The VRDO structure described above functioned successfully until
the credit ratings of insuring institutions were downgraded, and in
many cases, dropped below the credit rating of the HFA (the bond
issuer). Consequently, many investors were required to “put” their
VRDOs back to the remarketing agent as their governance
investment guidelines prohibited them from holding securities
below a certain rating threshold. As a result, tender volume
increased and liquidity disappeared from the market. Treasury, in
conjunction with FHFA and the GSEs, created the TCLP as a means
of offsetting the HFAs’ exposure to the credit downgrades. The
GSEs entered into agreements with state and local HFAs to provide
temporary credit and liquidity support for certain existing/
outstanding VRDOs by issuing Temporary Credit and Liquidity
Facilities (TCLFs) to participating HFAs. The GSEs were also
responsible for assuring that the existing bond indentures were
amended and supplemented as a means for maintaining and/or
improving the credit rating of underlying bonds. Treasury’s role in
the TCLP was to purchase certificates issued by the GSEs
representing 100 percent participation interests in the TCLFs. The
flow of TCLP activities are shown in figure 2.




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 15
Housing Finance Agency Initiative (OIG-13-040)
Appendix 2
Descriptions of the New Issue Bond Program and Temporary Credit and Liquidity
Program



Figure 2.




At the outset of the TCLP, Treasury committed $8.2 billion for its
100 percent participation interest. As a result of some HFAs
withdrawing from the program and bond repayments, Treasury’s
exposure has been reduced to approximately $2.8 billion. Treasury
amended its financial agency agreements with JPMorgan and State
Street to design the TCLP and monitor the GSEs’ agreements with
participating HFAs.

The TCLP was to expire on December 31, 2012, but was extended
through December 31, 2015, as a result of certain HFAs’ inability
to fully transition back to the private market.




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 16
Housing Finance Agency Initiative (OIG-13-040)
Appendix 3
Management Response




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 17
Housing Finance Agency Initiative (OIG-13-040)
Appendix 3
Management Response




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 18
Housing Finance Agency Initiative (OIG-13-040)
Appendix 4
Major Contributors To This Report




Donna Joseph, Audit Director
Lisa Carter, Audit Manager
Alexander Granado, Auditor
Rachael Young, Auditor
Paul Harris, Program Analyst
Dana Duvall, Referencer




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 19
Housing Finance Agency Initiative (OIG-13-040)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Under Secretary for Domestic Finance
    Fiscal Assistant Secretary
    Office of the Assistant Secretary for Financial Markets
    Office of the Deputy Assistant Secretary for Government
       Financial Policy
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of Management and Budget

    OIG Budget Examiner




Treasury Needs Written Policies and Procedures for Its Oversight of the   Page 20
Housing Finance Agency Initiative (OIG-13-040)
THIS PAGE INTENTIONALLY LEFT BLANK
